<html>
<title> - COMMITTEE ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                    COMMITTEE ORGANIZATIONAL MEETING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 29, 2019

                               __________

                            Serial No. 116-1

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-359 PDF               WASHINGTON : 2019                             
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey             CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia        STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida         JOE WILSON, South Carolina
KAREN BASS, California              SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts      TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island       ADAM KINZINGER, Illinois
AMI BERA, California                LEE ZELDIN, New York
JOAQUIN CASTRO, Texas               JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                  ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York         BRIAN MAST, Florida
TED LIEU, California                FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania            BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota               KEN BUCK, Colorado
COLIN ALLRED, Texas                 RON WRIGHT, Texas
ANDY LEVIN, Michigan                GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia        TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania      GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey          STEVE WATKINS, Kansas
DAVID TRONE, Maryland               MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas               
                                     
                                     
                                 

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                CONTENTS

Rules of the Committee on Foreign Affairs, 116th Congress........     4
House Foreign Affairs Committee Professional Staff...............    24
House Foreign Affairs Subcommittees..............................    29

                                APPENDIX

Hearing Notice...................................................    36
Hearing Minutes..................................................    37
Hearing Attendance...............................................    38


                    COMMITTEE ORGANIZATIONAL MEETING

                       TUESDAY, JANUARY 29, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 2:15 p.m., in 
Room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
presiding.
    Chairman Engel. We are going to make this abbreviated, 
because I understand a vote has been called and there is liable 
to be a whole series of votes. So I think we are going to do 
this as quickly as we can, as fast as we can.
    A quorum is present. Let me start by welcoming all members 
to this organizational meeting of the House Foreign Affairs 
Committee for the 116th Congress.
    We meet today to do a bunch of things, but because of the 
votes I propose that we quickly adopt the committee rules and 
professional staff member list, and then afterwards we can 
introduce the new chairs and ranking members as well as new 
committee members.
    Pursuant to clause 2(a) of House rule XI, the next order of 
business is adoption of the committee's rules for the 116th 
Congress.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       
    Chairman Engel. A copy of the proposed rules has been 
distributed to each of you in advance.
    The changes from the last Congress are relatively minor. We 
made some adjustments to the jurisdiction of the subcommittees, 
some additions to ensure that our rules conform to the House 
rules, and some changes to enhance transparency and oversight.
    The proposed rules are a bipartisan product, and I thank 
Mr. McCaul for working with me on this package. I would like to 
give Mr. McCaul a chance to make any statement he may wish on 
the rules.
    Mr. McCaul. We are fully in support of the rules package, 
and it is my understanding that we will vote on that first and 
then make opening statements and introduce the new members.
    Chairman Engel. Does any member wish to be recognized?
    If not, I move that the proposed rules be adopted as the 
rules of the Committee on Foreign Affairs for the 116th 
Congress.
    All in favor, say aye.
    Those opposed, say no.
    The ayes have it, and the proposed rules are adopted.
    Without objection, the motion to reconsider is laid on the 
table and staff are authorized to make technical and conforming 
changes to the rules.
    The next order of business is to adopt the list of 
committee professional staff members, as required by House 
rules.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Engel. You have in your folders the list of staff.
    We are very fortunate to have such a talented and dedicated 
staff on both sides of the aisle. In particular, I would like 
to recognize my staff director, Jason Steinbaum, who most of 
you know, and the ranking member's staff director, Brendan 
Shields.
    Without objection, I move that the committee staff list be 
adopted.
    OK. So moved.
    Thank you, Mr. McCaul, and thank you to all our committee 
members.
    Let me yield to Mr. McCaul for any remarks he may wish to 
make.
    Mr. McCaul. Thank you, Chairman Engel. It is a great honor 
to serve alongside of you as the lead Republican on the Foreign 
Affairs Committee.
    This is a historic committee that deals with serious issues 
of war and peace. It dates back to the Continental Congress, 
where Benjamin Franklin served as its first chairman.
    In the next 2 years, America will be met with many 
international challenges. Some of these problems are very 
familiar; others have yet to materialize. As we sit here today, 
we are seeing in real-time the fight for the future of 
Venezuela. I know all of you hope there is a peaceful 
transition of power and that democracy triumphs over tyranny.
    As we confront these challenges, it will be important for 
all of us to work together to put forward the best solutions. 
As I have always said and always heard Chairman Engel say many 
times, partisanship must end at the water's edge. This 
committee has enormous responsibilities, and I look forward to 
showing the American people that both parties can unite to do 
what is best for our country.
    Some of my priorities are to confront our adversaries by 
taking real steps to counter China and Russia and increase 
pressure on Iran and North Korea; bolster engagement with our 
allies, including NATO and Israel; enhance our presence and 
leadership around the world; expand market access for American 
business abroad; reform and streamline the State Department, 
with its first comprehensive reauthorization since 2002, and 
modernize our foreign aid programs; secure America by combating 
human trafficking, transnational organized crime, gangs, and 
drug cartels, in addition to enhancing cybersecurity and 
counterterrorism measures around the globe; ensure the American 
Government is doing all we can to tackle childhood cancer in 
the developing worlds, especially in Africa.
    There will be times we may not see eye to eye, but in those 
instances I look forward to having a respectful and civil 
debate.
    I would like to take this opportunity to recognize my 
subcommittee ranking members and introduce new Republican 
members of the committee.
    First, the vice ranking member, Representative Ann Wagner, 
former Ambassador to Luxembourg.
    Congratulations, Ann.
    Next, on Africa, Global Health and Human Rights, and 
International Organizations, Representative Chris Smith, who 
has served in Congress for 38 years as a champion of human 
rights.
    Next, Asia, the Pacific, and Nonproliferation, 
Representative Ted Yoho, who has become a real leader and a 
real expert in this area and this region.
    Next, Europe, Eurasia, Energy, and the Environment, 
Representative Adam Kinzinger, an Air Force veteran who served 
in Iraq and Afghanistan.
    Next, Middle East, North Africa, and International 
Terrorism, Representative Joe Wilson, an Army veteran, father 
of four sons who have served our country in the military, and 
one of the nicest guys you will meet in Congress.
    Next, Oversight and Investigations, Representative Lee 
Zeldin, a former attorney who served in Iraq and continues to 
serve in the Army Reserves today.
    And then finally, Western Hemisphere, Civilian Security, 
and Trade, Representative Francis Rooney, former Ambassador to 
the Holy See.
    The new Republican members joining our team are: Ken Buck 
from Colorado, former prosecutor with the Department of 
Justice, served as chief for the Criminal Division in the U.S. 
Attorney's Office; Tim Burchett from Tennessee, former mayor of 
Knox County and served 16 years in the State legislature; 
Michael Guest from Mississippi, a former district attorney; 
Greg Pence--I think we all know his last name very well--from 
Indiana, a former Marine and businessman; and Guy Reschenthaler 
from Pennsylvania, a U.S. Navy veteran who served in the JAG 
Corps in Iraq, he also served as a district judge in the 
Pennsylvania legislature; Steve Watkins from Kansas, a graduate 
of West Point, MIT, and Harvard, combat veteran who served in 
Afghanistan; and, last, Ron Wright from my home State of Texas, 
who has been involved in politics for 30 years and worked with 
Congressman Joe Barton, my dear friend.
    I want to congratulate all of you. I am delighted at the 
experience we have, particularly the military and veteran 
experience and prosecutorial experience in foreign policy. I 
know everyone is ready to get to work.
    And, with that, Mr. Chairman, let me say what an honor it 
is to serve with you, and, above all, I will cherish our 
friendship.
    With that, I yield back.
    Chairman Engel. Thank you very much, Mr. McCaul.
    Let me just say at the outset, those of you who have been 
on the committee for the past several years know that Chairman 
Royce and myself had an extraordinary relationship. We always 
said that politics should stop at the water's edge when it 
comes to foreign policy, and we conducted ourselves that way. I 
believe that the same thing will be true of Mr. McCaul and 
myself.
    I want to just say that, while people may have differences 
of opinion, we can do it in a respectful way and even find out 
that maybe with a little bit of tweaking here and there we 
could actually agree on most of the things.
    I would hope that the traditions from the past 6 years on 
the Foreign Affairs Committee will continue with myself and Mr. 
McCaul as leaders of the committee.
    I am very honored to serve as chairman of this very 
important committee, and I hope to continue our longstanding 
tradition of bipartisan cooperation to advance American 
interests around the world. And previous chairmen from both 
parties have been fair, transparent, and inclusive, and my 
commitment is that I will follow in their footsteps.
    The committee will do good work. It will not shirk its 
responsibilities. We will conduct thorough oversight of the 
agencies, programs, and policies under our jurisdiction. That 
is our constitutional obligation. It is what the American 
people expect us to do.
    There will be times when we disagree on policy matters, and 
that is what democracy is all about, but those disagreements 
should not descend into personal animosity. And, as I said, I 
look forward to working with Mr. McCaul to set a positive tone 
and make sure the voices of all of our members, Democrats and 
Republicans alike, are heard.
    I would like to now take a moment to introduce our 
subcommittee chairs and the new Democratic members of the 
committee.
    First, the chairs: Brad Sherman will serve as chair of the 
Subcommittee on Asia, the Pacific, and Nonproliferation. Albio 
Sires will serve as chair of the Subcommittee on Western 
Hemisphere, Civilian Security, and Trade. Ted Deutch will serve 
as chair of the Subcommittee on Middle East, North Africa, and 
International Terrorism. Karen Bass will serve as the chair of 
the Subcommittee on Africa, Global Health, Global Human Rights, 
and International Organizations. Bill Keating will serve as 
chair of the Subcommittee on Europe, Eurasia, Energy, and the 
Environment. And Ami Bera will serve as chair of the 
Subcommittee on Oversight and Investigations.
    The vice chair is Joaquin Castro. He is a valuable member 
of the committee and will be a great vice chair. I look forward 
to working with him.
    Now our new Democratic members.
    First, we have Susan Wild, who won a special election to 
serve the remaining 2 months of the 115th Congress in the 15th 
District of Pennsylvania and now represents the new Seventh 
District. Previously, she served as the Allentown city 
solicitor.
    Next, we have Dean Phillips, a newly elected Member 
representing the Third District of Minnesota. He was a 
businessman before coming to Congress.
    Next. we have another newly elected Minnesotan, Ilhan Omar, 
who represents that State's Fifth District. Prior to joining us 
on Capitol Hill, she was the assistant minority leader in the 
Minnesota House of Representatives.
    Next, we have Colin Allred, a newly elected Member 
representing the 32d District of Texas. Previously, he served 
at the Department of Housing and Urban Development and played 
professional football. We can challenge some of the other 
committees on that.
    He is followed by Andy Levin, a newly elected Member 
representing Michigan's Ninth District. Before coming to 
Congress, he was a union organizer, human rights activist, and 
green energy entrepreneur.
    Next, is Abigail Spanberger. She is a newly elected Member 
representing the Seventh District of Virginia and previously 
served as a CIA case officer.
    She is followed by Chrissy Houlahan, a newly elected Member 
representing Pennsylvania's Sixth District. She is an Air Force 
veteran, engineer, entrepreneur, and educator.
    Next, we have Tom Malinowski, another first term Member, 
who represents the Seventh District of New Jersey. Previously, 
he served as Assistant Secretary of State for Democracy, Human 
Rights, and Labor, on the staff of the National Security 
Council, and worked at Human Rights Watch.
    Next, is David Trone, a newly elected Member representing 
Maryland's Sixth District. Previously, he worked at his family 
business, a well-known retailer of fine wine and other 
beverages.
    He is followed by Jim Costa, who is in his seventh term 
representing the 16th District of California. He previously 
served on this committee, and we are very happy to welcome him 
back.
    And next, we welcome another Californian, Juan Vargas, who 
is now in his fourth term, representing the Golden State's 51st 
District of California. Like Jim Costa, he is also returning to 
the committee.
    Last but not least, we have Vicente Gonzalez, now serving 
his second term representing the 15th District of Texas.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Engel. And now we are done, and we have to go and 
vote. So I want to thank everybody. We will see you on the 
floor.
    The committee is adjourned.
    [Whereupon, at 2:28 p.m., the committee was adjourned.]

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
